                                Closeout for M96060026

    An anonymous NSF employee (the complainant) informed OIG of allegations that a PI
(the subject)' was seeking duplicate finding by submitting several similar proposals to
NSF at the same time. The complainant listed six proposals,2~7     in two groups of three,
denoted #2-4 and #5-7, that were alleged to be "too similar in content" to be unrelated.
     The first group of three proposals (#2-4) were primarily for the purchase of
equipment. The subject was listed as a co-PI on these proposals. The earliest submission
(#2) was to develop a multimedia presentation utilizing computers to aid in the teaching of
courses in the subject's Department. The next two proposals (#3-4) were similar only in
that they were both intended to allow the university to acquire a variety of equipment for
its newly renovated engineering center. The two proposals were distinct in the equipment
they were asking for and the proposed research to be carried out with that
equipment. Because each of the proposals requested different equipment for different
research projects, OIG concluded that the research presented in NSF proposals #2-4 was
not duplicative.
     OIG cross-checked the seven other co-PIS associated with proposals #2-4 and found
that, excluding these proposals, they did not have more than one proposal submitted to
NSF at any given time. OIG also compared the proposals submitted to other agencies by
all of the authors and determined that none of the NSF proposals overlapped with awards
from other finding sources. OIG concluded that the PIS did not seek duplicate finding
from NSF with regard to these proposals (#2-4).
    The second group of three proposals (#5-7) listed the subject as the sole PI. These
proposals sought NSF finding primarily for personnel, the PI and a graduate student, as
opposed to equipment. The first two of this group (#5-6) were, to a degree, related to
each other; proposal #5 was a standard research grant while proposal #6 was a SGER
(Small Grant for Exploratory Research) that appeared to be a high risk spin-off of a
specific aspect of the research in proposal #5. The research proposed in the SGER was
concerned with exploring an unconventional approach to testing the subject's hypothesis
that could be applied to one of the components of the research described in proposal
#5. To carry out the research for the SGER, the PI would have to modii the equipment
he planned to use in proposal #5 and would measure different physical characteristics.
The last proposal of this group, #7, was unrelated to either of the other two. OIG


    ' Footnote redacted.
     Footnote redacted.
     Footnote redacted.
     Footnote redacted.
     Footnote redacted.
     Footnote redacted.
     Footnote redacted.


                                       Page 1 of 2
                                Closeout for M96060026


concluded that the similarity between two of the proposals was minimal and, given that
they were two different types of grants with different purposes, were not duplicative.
     OIG concluded there was no substance to the allegations that the subject was trying to
obtain duplicate finding fiom NSF. Furthermore, the subject was generally carefil to list
all proposals that had been submitted to NSF in each subsequent proposal he submitted.
   This inquiry is closed and no firther action will be taken on this case.


cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                        Page 2 of 2
